r,

WAIVER

Supreme Court, U.S.
FILED

APR 0 2 2021

Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-7338
Foster Lee Tarver

v.

(Petitioner)

Josh Shapiro, Attorney General of
Pennsylvania, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
I am a member of the Bar of the SupreinelCOnrt of the Milted. States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you.to enter your appearance first.)
•
X

I am not presently a member of the Bar of this Court. Should 'a" response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn:,Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature /s/ Ryan H. Lysaght
Date: 3/15/2021
(Type or print) Name Ryan. H. Lysaght
0 Ms.
Ed Mr.

0 Mrs. "

- 0 Miss

Firm Dauphin County District Attorney's Office
Address .101 Market Street
Zip 17101

City & State Harrisburg, Pennsylvania
Phone 717-780-6750

RLysagh@dauphinc.org

r

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc:

,zefiEtaiNEtatirt
OFFICE OF THE CLERK
SUPREME COURT, U.S.

IV1 Elate

